<html>
<title> - HELP WANTED: SMALL BUSINESS PROVIDING OPPORTUNITIES FOR ALL</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


      HELP WANTED: SMALL BUSINESS PROVIDING OPPORTUNITIES FOR ALL

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                              MAY 19, 2016

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
                               

            Small Business Committee Document Number 114-061
              Available via the GPO Website: www.fdsys.gov
              
              
                              ___________
                              
                              
                  U.S. GOVERNMENT PUBLISHING OFFICE
20-198                    WASHINGTON : 2016                  
            
_________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f89f8897b89b8d8b8c909d9488d69b9795d6">[email&#160;protected]</a>  
             
              
              
              
                   HOUSE COMMITTEE ON SMALL BUSINESS

                      STEVE CHABOT, Ohio, Chairman
                            STEVE KING, Iowa
                      BLAINE LUETKEMEYER, Missouri
                        RICHARD HANNA, New York
                         TIM HUELSKAMP, Kansas
                         CHRIS GIBSON, New York
                          DAVE BRAT, Virginia
             AUMUA AMATA COLEMAN RADEWAGEN, American Samoa
                        STEVE KNIGHT, California
                        CARLOS CURBELO, Florida
                         CRESENT HARDY, Nevada
               NYDIA VELAZQUEZ, New York, Ranking Member
                         YVETTE CLARK, New York
                          JUDY CHU, California
                        JANICE HAHN, California
                     DONALD PAYNE, JR., New Jersey
                          GRACE MENG, New York
                       BRENDA LAWRENCE, Michigan
                       ALMA ADAMS, North Carolina
                      SETH MOULTON, Massachusetts
                           MARK TAKAI, Hawaii

                   Kevin Fitzpatrick, Staff Director
                       Jan Oliver, Chief Counsel
                  Michael Day, Minority Staff Director
                           
                           
                           
                           C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Steve Chabot................................................     1
Hon. Nydia Velazquez.............................................     2

                               WITNESSES

Ms. Lisa Goring, Executive Vice President, Programs and Services, 
  Autism Speaks, New York, NY....................................     4
Ms. Terri Hogan, Owner, Contemporary Cabinetry East, Cincinnati, 
  OH.............................................................     6
Mr. Rajesh Anandan, Co-founder, ULTRA Testing, New York, NY......     7
Mr. Joe Steffy, Owner, Poppin Joe's Gourmet Kettle Korn, 
  Louisburg, KS, accompanied by Mr. Ray Steffy...................     8

                                APPENDIX

Prepared Statements:
    Ms. Lisa Goring, Executive Vice President, Programs and 
      Services, Autism Speaks, New York, NY......................    18
    Ms. Terri Hogan, Owner, Contemporary Cabinetry East, 
      Cincinnati, OH.............................................    25
    Mr. Rajesh Anandan, Co-founder, ULTRA Testing, New York, NY..    44
    Mr. Joe Steffy, Owner, Poppin Joe's Gourmet Kettle Korn, 
      Louisburg, KS, accompanied by Mr. Ray Steffy...............    52
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    Source America...............................................    55
    Testimony of Jose H. Velasco, Head of Autism at Work 
      Initiative in the United States for SAP....................    57

 
      HELP WANTED: SMALL BUSINESS PROVIDING OPPORTUNITIES FOR ALL

                              ----------                              


                         THURSDAY, MAY 19, 2016

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:03 a.m., in Room 
2360, Rayburn House Office Building, Hon. Steve Chabot 
[Chairman of the Committee] presiding.
    Present: Representatives Chabot, Luetkemeyer, Hanna, 
Huelskamp, Brat, Radewagen, Curbelo, Hardy, Kelly, Velazquez, 
Clarke, Chu, Lawrence, and Adams.
    Also Present: Representative Smith
    Chairman Chabot. The committee will come to order. I want 
to thank everyone for being here today. Before I give my 
opening statement I would like to welcome here the co-chairs of 
the Autism Caucus, Chris Smith from New Jersey and Mike Doyle 
from Pennsylvania, his Democratic counterpart. We thank you all 
for your hard work in this area and appreciate you being here 
today.
    Often when this committee meets, it is to discuss the 
challenges facing small businesses. Today however, we get to 
talk about some of the truly inspiring opportunities they can 
offer. After all, small businesses are not just the backbone of 
the American economy, but they are also at the heart of our 
committee. Today the committee will hear about the role small 
businesses are playing in expanding employment opportunities 
for all Americans.
    I am proud to welcome our four witnesses today who have had 
such a positive affect on their communities. I am especially 
pleased that one of our witnesses, Ms. Terri Hogan is visiting 
us today from my hometown of Cincinnati, and we welcome you 
here. As we do all our witnesses I will introduce all of you 
here shortly.
    For adults with intellectual or developmental disabilities 
or disorders, finding and sustaining employment can be a real 
challenge. These individuals can be overlooked when employment 
opportunities arise and too often they are shut out from the 
workplace all together. Yet across the country we are seeing 
examples of how small businesses, with their ability to adapt 
and accommodate, are able to provide employment opportunities 
to those who might not otherwise get a chance.
    Today we are excited to hear about some of these stories 
and learn more about the ways individuals who may have special 
needs are contributing to small business success all over the 
country. As we approach the end of May, graduation season is 
officially upon us. Thousands of young adults will be leaving 
school, ready and eager to join the workforce. This new chapter 
in their life can present challenges for everyone. But for 
those with intellectual or developmental disorders or 
disabilities this can be especially daunting. These men and 
women leaving school might face a future where the prospect of 
finding employment is unknown and options for the future seem 
limited. Thankfully small businesses working to expand 
opportunities are allowing individuals with special needs to 
enter the workforce and grow their quality of life.
    I am looking forward to hearing from our witnesses today 
and applaud them for the example they have set in showing the 
tremendous impact expanding employment opportunities can have.
    I now would like to yield to the Ranking Member Ms. 
Velazquez for her opening remarks.
    Ms. Velazquez. Thank you, Mr. Chairman. Thank you for 
putting together this hearing. I am very, very excited. For 
most people work is closely aligned with feelings of self worth 
and a general sense that one is contributing to society. 
Generally when small businesses are succeeding the result is 
greater employment opportunities for all Americans. Small 
businesses create jobs in their communities, opening doors for 
their neighbors. We have seen this phenomenon recently as the 
U.S. economy recovered from the Great Recession.
    Today we are in the midst of the longest streak of private 
sector job growth in history. In fact, 10 million jobs have 
been created since 2009. And thanks largely to small businesses 
the overall unemployment rate has been cut in half from 10 
percent to 5 percent. Unfortunately, one particular demographic 
continues facing persistent challenges when it comes to 
securing employment not only when there is an economic 
downturn, but in good times as well.
    Sadly, those with autism spectrum disorder or down syndrome 
have an unemployment rate significantly higher than the 
national average. It is estimated that 90 percent of these 
individuals are unemployed or under employed. Regrettably this 
population faces an uphill battle to overcome false perceptions 
about their abilities and their capacity as employees.
    Many of those on the autism spectrum excell in specialized 
kinds of work like software testing, lab work and proofreading. 
They observe details that others miss and are able to focus for 
long periods of time. Naturally they take well deserved pride 
in their distinctive abilities and have a typical ways of 
viewing the world. Similarly, individuals with down syndrome 
are valued members of the workforce when given the opportunity. 
They are proven to be efficient and loyal employees.
    Yet despite their proven abilities, desire to work and the 
benefits to all parties involved, a lack of opportunity 
remains. Enhancing opportunities for these employees is not 
only beneficial from a business perspective but also from an 
overall society perspective as well. Research shows employing 
individuals with disabilities reduces reliance on publicly 
funded adult services. With increased public awareness and 
inclusion efforts many of the false notions about those with 
autism and down syndrome has been dispelled.
    Today thousands of small businesses are providing not only 
job opportunities but career opportunities to these 
individuals. We are very happy to have some of them here today 
with us to share their experiences. If there is one thing 
entrepreneurs are good at, it is creating opportunity.
    Today small businesses are at the forefront of creating 
innovative business models that employ these competent and 
hardworking individuals. I hope today's hearing will further 
dispel misconceptions while making clear that what we can do to 
further facilitate small business employment for all Americans. 
On that note, I thank the witnesses for testifying and I look 
forward to your story. Thank you.
    Chairman Chabot. Thank you very much.
    I will now explain our lighting system here. Each of you 
gets 5 minutes to testify and then we will ask questions for 5 
minutes. The green light will be on for 4 minutes, the yellow 
light will be on for 1 minute, to let you know time is wrapping 
up, and when the red light comes on and we would ask you to 
stay within that if at all possible. If you need a little extra 
time that is okay, but try to stay within it to the degree 
possible.
    I might note we may be--we will be interrupted by votes at 
some point we think around 10:30 or so, so if you hear buzzers 
go off and members go scurry out of the room that is what is 
happening. We will adjourn for a little while, and then some of 
us will come back and some of us will head to our districts. I 
guarantee I will be back and the ranking member will be back.
    Without further adieu I would like to introduce our very 
distinguished and very interesting panel here today. Our first 
witness will be Lisa Goring. Ms. Goring is the Executive Vice 
President of Programs and Services at Autism Speaks where she 
has worked since 2006. She has been there 10 years. Under 
Lisa's leadership Autism Speaks has provided resources and 
support to hundreds of thousands of families and individuals 
with autism all across the country. Lisa has implemented many 
grant programs over the years to expand services and support 
for people of all ages with autism and is working with Autism 
Speaks on its small businesses initiative. We welcome you here 
this morning.
    Our next witness will be Ms. Terri Hogan, who is coming to 
us from the great city of Cincinnati. Ms. Hogan is the Chairman 
and CEO of Contemporary Cabinetry East, a small business with 
around 70 employees. Seeing the need for inclusion and 
diversity in the workplace, Ms. Hogan has through her business 
looked to provide opportunities to individuals who might 
otherwise be overlooked or shut out from employment. Her 
business has also partnered with local schools and 
organizations to provide career exploration tours to connect 
real world labor skills with the academic and life skills 
curriculum. This helps students gain the skills needed to get 
into the labor force.
    I would now like to yield to the ranking member for the 
purpose of introducing another witness, Rajesh Anandan.
    Ms. Velazquez. Thank you, Mr. Chairman. It is my pleasure 
to introduce Rajesh Anandan who is the cofounder of ULTRA 
Testing, a high quality software testing company employing 
individuals on the autism spectrum. Rajesh began his career at 
Microsoft and then joined Bain & Company where he focused on 
business incubation and growth strategy. For the past decade he 
has worked in the impact sector, including setting up and 
running the private sector division at the Global Forum to 
fight AIDS, TB and malaria. Rajesh is a member of advisory 
board of the Asperger syndrome training and employment 
partnership, the steering committee of the UNICEF Global 
Innovation Center and serves as an adviser to a number of 
technology startups. He holds degrees in computer science and 
electrical engineering from the Massachusetts Institute of 
Technology. Welcome.
    Chairman Chabot. Thank you very much. We thank the ranking 
member for that introduction. I would now like to introduce our 
final witness Mr. Joe Steffy. Mr. Steffy is coming to us from 
Louisberg, Kansas, where he is better known as Poppin' Joe, 
owner of Poppin' Joe's Gourmet Kettle Korn. He is a shining 
example as to the tremendous promise everyone is capable of 
achieving. When others sought to limit his potential, Mr. 
Steffy and his family developed a business plan. Through his 
hard work he has grown his business to where Poppin' Joe's 
Kettle Korn can be found at Walmarts, fairs, craft shows, car 
shows and events throughout Kansas and Georgia, and hopefully 
some day in my office.
    Mr. Steffy has also shipped his kettle corn to our troops 
serving overseas. We would have welcomed him bringing popcorn 
here today, but our rules prohibit bringing food into the room, 
so unfortunately we probably won't be doing that today, unless 
he is really persistent.
    He is accompanied today by his father, Ray Steffy, who will 
also be available to answer questions. We welcome his father as 
well. Once more we thank all the witnesses for being here. Ms. 
Goring, you are recognized for 5 minutes.

 STATEMENTS OF LISA GORING, EXECUTIVE VICE PRESIDENT, PROGRAMS 
AND SERVICES, AUTISM SPEAKS, NEW YORK, NY; TERRI HOGAN, OWNER, 
 CONTEMPORARY CABINETRY EAST, CINCINNATI, OH; RAJESH ANANDAN, 
CO-FOUNDER, ULTRA TESTING, NEW YORK, NY; AND JOE STEFFY, OWNER, 
POPPIN JOE'S GOURMET KETTLE KORN, LOUISBURG, KS, ACCOMPANIED BY 
                           RAY STEFFY

                    STATEMENT OF LISA GORING

    Ms. Goring. Thank you. Good morning, Chairman Chabot, 
Ranking Member Velazquez and members of the committee. Thank 
you for the opportunity to speak to you today about a topic 
that is of great importance to the autism community, advancing 
the role and impact of small businesses and employing 
individuals with autism.
    As mentioned I am the executive vice president of program 
services at Autism Speaks. Autism Speaks is the world's leading 
science and advocacy organization. We are dedicated to funding 
research to improve the lives of people with autism, increase 
awareness of autism spectrum disorders, and advocating for the 
needs of individuals with autism and their families.
    Autism Speaks aims to support adults on the spectrum in 
part by providing the tools and resources to expand employment 
opportunities and workplace supports for individuals with 
autism. As the largest wave of children with autism age out of 
our school system one of our community's most daunting 
challenges is finding employment. It is being tackled by 
entrepreneurs and small businesses. Across the country small 
businesses are utilizing unique flexibility to create 
accommodating and innovative business models that sustainably 
employ individuals with autism, expose students earlier in 
their education to real world work experience, and provide 
opportunities for work based learning and technical skill 
attainment.
    National data indicates that the vast majority of adults 
with autism are un or under employed, with some estimates 
ranging as high as 90 percent. While 50,000 young adults with 
autism each year age out of the school system in the United 
States, only a fraction of those are gainfully employed in jobs 
that match their capabilities.
    Autism Speaks is working with small businesses to improve 
employment outcomes. Over the past 3 years our collaborative 
efforts with small business communities strive to spread 
awareness about the benefits of employing people with autism, 
to develop innovative and sustainable business models, and 
hiring practices, and to provide technical assistance to 
implement best practices.
    What we have learned is clear. The innovation and 
flexibility unique to small businesses and entrepreneurs enable 
them to lead the way in employing individuals--small businesses 
are in a position not only to develop new models that employ 
individuals with autism, but to innovate in a way that directly 
responds to local labor market needs.
    The connection many small businesses have with their 
community is vital to creating the partnerships necessary to 
transition students into local workforce and share best 
practices with other businesses and nurture workforce comprised 
of people of all abilities.
    Businesses hire employees to fill a need and support their 
businesses bottom line. Small businesses with workforce that 
include employees with intellectual or developmental 
disabilities consistently report that these employees 
performance equals or exceeds that of their coworkers.
    The popular narrative that has largely been based on a 
sense of corporate social responsibility must shift to business 
centered and represent the worth, the capabilities and the 
efficiencies that individuals with autism can bring to the 
workplace.
    Employers are often unaware of the low-cost, high-impact, 
of work accommodations and benefits of hiring individuals with 
autism. All employees need the right tools and work environment 
to effectively perform their jobs. Similarly, people with 
autism may need some adjustments or accommodations to maximize 
their productivity. Employers report that a high percentage of 
job accommodations cost nothing and the rest typically cost 
less than $500.
    From our small businesses initiative we learned that 
creating communities of experts and invested partners who share 
information about accommodations and best practices is 
essential to help businesses utilize this untapped workforce.
    Looking forward, leveraging small businesses as a key 
partner in workforce development strategies could better 
prepare students with autism for employment and provide 
employers with a pipeline of skilled workers.
    National, State and local workforce development strategies 
should collaborate with small businesses to increase access to 
work based learned and work experience for secondary school 
students to raise employment and independent living aspirations 
of people with autism and their families while demonstrating 
local employers the value that individuals with autism bring to 
the workplace.
    Individuals with autism deserve the opportunity to 
contribute as productive workers and actively improve their 
quality of life. Businesses today have the opportunity to 
access a largely untapped labor pool of qualified job 
candidates who happen to be on the autism spectrum.
    Once again Mr. Chairman, Ranking Member Velazquez, I thank 
you and the committee for this opportunity to testify today. I 
have submitted additional remarks for the record and I look 
forward to answering any questions you may have.
    Thank you so much.
    Chairman Chabot. Thank you very much. It has been brought 
to my attention that Poppin' Joe, Mr. Steffy, actually does 
have popcorn here that will be available at the end of the 
hearing. It is an encouragement for folks to stick around all 
the way through the end. Let's hear it for Joe. Excellent. 
Thank you.
    Ms. Hogan you are recognized for 5 minutes.

                    STATEMENT OF TERRI HOGAN

    Ms. Hogan. Good morning Chairman Chabot, and Ranking Member 
Velazquez, and members of the committee. I am Terri Hogan, 
speaking on behalf of Contemporary Cabinetry East located in 
Cincinnati, Ohio. My title is CEO and chairman and we are 
certified NW BOS, women owned business.
    We began as a very small family business in 1984. My 
husband and I purchased the company from the family in 2003 and 
have grown the business steadily and today employ 70 
individuals. My husband Paul and I volunteer in the special 
needs community and are raising our 17 year old son, Bailey, 
who has autism. We understand the concern of families who are 
facing transition into adulthood, and those who have already 
reached this stage. What happens now is a question frequently 
asked: How can our young adults become independent members of 
the community?
    Thank you for this opportunity to speak before you to 
discuss how we can address these concerns and to discuss 
inclusion in a small business workplace. We need to educate 
others so they can begin to take the d-i-s out of disabilities 
and replace it with abilities. We also need to make small 
businesses aware of the huge untapped resource, people with 
diverse abilities.
    Hiring people who are physically, genetically or 
cognitively diverse is not just the right thing to do, it is 
the smart thing to do. I believe the Cincinnati small business 
community needs to work harder to address inclusion in the 
workplace.
    Over a year ago our company hired Mike, and Mike is here 
with us today. When he started he had a job coach working with 
him and after a few months he became self-sufficient. Job 
coaches shadow employees and empower them to improve 
performance. Since Mike has been with us he has become a model 
employee. He comes to work on time. He is reliable, he has 
raised morale, brought community awareness and has caused 
others to have a broader perspective. He has also developed 
many friends at our company. For the business, Mike has helped 
to develop a healthier bottom line and everyone works harder 
because of Mike.
    A quote from Employment First fact sheet, when businesses 
identify the strengths of employees with disabilities then put 
them in jobs that match their skills, those employees turn out 
to be faithful, low turnover, hardworking employees. These 
special employees come to work on time and when scheduled and 
have lower sick time off.
    In conclusion I hope you all leave here today with a better 
understanding of how inclusion in the workplace adds to the 
diversity of the workplace environment and may lead to a more 
diverse customer base.
    The positive effect these individuals have on lifting the 
morale of our employees and set role model work ethic examples. 
Begin career and technical education in middle and high schools 
so students can learn these skills before they face transition 
into adulthood. Take the d-i-s out of disabilities and focus on 
abilities.
    Here is a quote I recently read and I feel it is applicable 
to this discussion. ``We become like our friends. The people we 
surround ourselves with either raise or lower our standards.'' 
Mike has raised everyone's standards at CCE, and hiring Mike 
was the best business decision I have ever made.
    Thank you for your time and attention. Let's go to work. 
Also, thank you Congressman Chabot for supporting the ABLE to 
Work Act.
    Chairman Chabot. Thank you very much. Appreciate it. Mr. 
Anandan, you are recognized for 5 minutes.

                  STATEMENT OF RAJESH ANANDAN

    Mr. Anandan. I would like to start with a video.
    [Video shown.]
    Chairman Chabot, Ranking Member Velazquez, members of the 
committee, thank you for your continued efforts to support 
small businesses in the U.S. My name is Rajesh Anandan and I am 
one of the cofounders of ULTRA Testing, a company I started 3 
years ago with my old College roommate Art Shectman who is not 
here with us today, someone has to run the business. Together 
we started a company that we believe will revolutionize the 
software testing industry. More importantly, we are building a 
business that we hope will prove the tremendous economic 
opportunity to be unlocked by employing individuals on the 
autism spectrum.
    David, whom you saw in the video, is one of our team 
members at ULTRA. David graduated in 2001 with a computer 
science degree and he was eager to start work. He interviewed 
for dozens, and applied for dozens of positions, but 
unfortunately was not able to find job in his field or any 
field. He was eager to work so he started volunteering at a 
computer repair shop, and helping friends and family with their 
IT issues.
    For over a decade David tried to find paid work without 
success. In 2014 he applied for a part-time software testing 
position at ULTRA and successfully completed our rigorous 
recruiting process. Within a month after starting work he was 
working on billable client projects, generating an income for 
himself, revenue for the company and value for clients. Within 
a year, based on consistently excellent results that David 
produced, we offered him a full-time position at ULTRA. Today, 
thanks to his heightened abilities around patent recognition, 
logical reasoning, his innate curiosity about technology, his 
thirst to learn and improve, his willingness to persevere 
through difficult and challenging tasks and projects, and his 
commitment to work hard and do his best every single day.
    David is one of the best software testers we have on our 
team at ULTRA and I would argue in the world. There are 3-1/2 
million Americans on the autism spectrum and by some estimates 
one-third of this community have graduated high school and in 
some cases college. Many individuals on the spectrum, like 
David, are extremely capable and willing to work hard and would 
make a fantastic addition to any team or organization. Yet over 
80 percent of this population is not employed.
    When my cofounder Art and I founded ULTRA, 3 years ago, we 
set out to prove that we can build a technology company that 
brought excellence to our industry by employing a truly diverse 
workforce of people with different abilities.
    Today we have team members working in 13 States across the 
U.S., including the home states of most members of this 
committee. Over 75 percent of our employees have Asperger 
syndrome or a similar autism spectrum profile. 100 percent of 
us believe that it is our differences that make us better.
    Thanks to our exceptional team, ULTRA has tripled our 
revenues 2 years in a row. We have achieved profitability and 
we have consistently outperformed our competition. And to do 
that, we haven't used a single dollar of philanthropic or 
government support. Instead we developed an entirely new 
operational model for running a business, one that reinvented 
how recruiting and training works, that re-imagined how 
projects and teams need to be managed and redesigned how we 
communicate and interact with each other.
    Today, thanks to widely available tools and technologies 
that allow for data driven hiring that don't require resumes or 
interviews that promote digital first communication that don't 
mean you have to be showing up to an office and can work from 
an environment that is comfortable for you, and that allow 
remote teams to work as efficiently as teams that are co-
located. Any business small or large can leverage the talents 
of individuals anywhere in this country, including individuals 
on the autism spectrum.
    Our experience at ULTRA has proven that by doing so, 
companies can not only gain highly capable employees but can 
also achieve a consistently superior result and a competitive 
advantage. Thank you.
    Chairman Chabot. Thank you very much. Mr. Steffy, you are 
recognized for 5 minutes.

                    STATEMENT OF JOE STEFFY

    Mr. Joe Steffy. Good morning, Chairman Chabot, Ranking 
Member Velazquez, and members of the Small Business Committee.
    Thank you for giving me the opportunity to speak to you 
about my journey from no expectations to becoming a successful 
businessowner. It is an honor for me to be here.
    I was welcomed to life with ``here is your label''. I was 
welcomed to school with ``here is your label''. Then came 
welcome to adult life with ``here is where you belong''. Labels 
create low expectations, the worse disability of all. My 
parents attended a Kansas partners in policymaking training 
when David Hammis presented. They learned that I and others 
with significant challenges could own their own business.
    Mom wrote the business plan, dad continued the trial work 
period with me. The data collecting was useful for developing 
the business plan. My future in the kettle corn business looked 
promising. My startup team included the Kansas Council for 
Developmental Disabilities. Another member of my startup team 
was Social Security, vocational rehabilitation provided support 
for the specific business equipment and supplies. My PASS plan 
let me set aside money to achieve my specific work goals. I 
submitted my business plan to each of my team members. Their 
support made it possible for me to become a sole proprietor of 
Poppin' Joe's Kettle Korn in April 2005. The first 5 years 
shows a steady increase in sales. Each year since remains 
constant, 2015 grossed $67,000. Please watch with me a few 
minutes of my work day.
    [Video shown.]
    Mr. Joe Steffy. Owning my business works for me, it creates 
opportunities for me to grow as a person and to be an engaged, 
valued member of my community. With the right support system 
being a self supporting entrepreneur can happen. I love being 
Poppin' Joe. Thank you for inviting me. Have a poppin' great 
day.
    Chairman Chabot. Excellent. The gentleman's time has 
expired. Thank you very much, all four excellent testimony. The 
buzzer you heard was votes, we probably have time for one group 
of questions before we break. I will go ahead and recognize 
myself for 5 minutes and then after that we will adjourn, go 
vote, we will be gone for a while and then come back.
    I will begin with Joe, you and your father Ray. First of 
all, I want to thank you for upgrading the pronunciation of my 
name to Chabot. It sounds much more distinguished than Chabot, 
the way we say it, so very good. That is the French 
pronunciation so you obviously did some research here.
    What are some of the challenges that you faced in getting 
the businesses off the ground and how did you overcome those 
challenges, what recommendations would you have to others that 
might want to do something similar?
    Mr. Ray Steffy. Basically in the beginning Joe had a 
transition meeting with the school and they said that he had no 
attention span, couldn't keep on task, would probably never 
hold a job and that he would live in a group home the rest of 
his life. No one wants to hear that said about their child. I 
was determined, I was going to prove to this committee that he 
could work. It was from there that we found kettle corn as 
being a business with a number of different processes to making 
the product. That way Joe could move from one phase to another 
phase as he chose so he could keep his attention span involved 
with it. That was one of the main things in the beginning.
    For funding we were able to work with David Hammis and Cary 
Griffin and they showed us resources that we could go to, 
Social Security, DD Council in Kansas. All of those entities 
contributed money for him to get his equipment to start with. 
It was from there that we started just doing it to prove Joe 
could work, it was within a 5-year period of time that they 
indicated that we would be able--Joe would be able to own the 
business. That is how we got started.
    We made the application, and on the 5th of April in 2005 he 
became the owner and has he has been the owner ever since.
    Chairman Chabot. In the film there it said they sold $6,000 
worth of the product, but that is just that business, right? My 
understanding is the business makes----
    Mr. Ray Steffy. Yes. That is a cider mill there located in 
Louisberg and that is how much they paid Joe for his corn. 
Today they are selling over $10,000. They are selling close to 
$100 a week right now. When you get into the fall during cider 
season he will be selling up to a $1,000 a month.
    Chairman Chabot. That is just that one business.
    Mr. Ray Steffy. That is just one business. Yes.
    Chairman Chabot. Overall, not to be nosey but how 
successful is the business? The IRS wants me to ask this 
question.
    Mr. Ray Steffy. No, no. Right, right. He has been audited 
too. Basically he is selling upward of $70,000 worth of popcorn 
a year going by festivals and he has about five or six outlets 
where he sells retail to people, convenience stores, that kind 
of thing.
    Chairman Chabot. Congratulations, tremendous. Next 
question, Ms. Goring and Ms. Hogan let me ask you this real 
quickly, what perceptions do you hear from other businesses 
that are public about hiring folks that have challenges? How 
would you respond--how do you address those challenges, and the 
pre-disposition that some folks might have about hiring folks 
like this?
    Ms. Hogan. I think a whole lot of them have hesitations 
because they are not educated and they are not aware. One of 
the things that went to my advantage is I am raising a son with 
autism, so I understand the language. I get it. What is 
important is that we get out there and educate the small 
business owners that aren't like me.
    How do we tap into them to tell them it is okay? I have 
quotes from our employees with me today and the things that 
they have said that Mike is has just totally brought their 
morale up, made them all better employees. Most of them have 
never been around anyone with special needs before. It has 
created awareness for them. It has done a lot better for our 
business. Because we are doing it, we need to work with you 
somehow and how can we get out there and talk to these people, 
how do we reach them? We can give them such a positive story 
about how good it is for their business.
    Chairman Chabot. Thank you. In 25 seconds, Ms. Goring, 
which is all I have left, if you would like to respond.
    Ms. Goring. I just think it is important that we utilize 
the skills that people with autism have and they are very good 
at complex, yet repetitive tasks that others may not be at good 
at. It is really a competitive advantage.
    Chairman Chabot. Unfortunately, as I mentioned votes have 
been called so we are going to have to adjourn. My 
understanding is that we have votes that will take up about 45 
minutes and then we will be back. Remember there is popcorn 
waiting after we get back so stick around. We are adjourned.
    [Recess.]
    Chairman Chabot. I apologize for telling everybody it would 
be 45 minutes, and it ended up being a lot longer than that. 
Please accept our apologies, and I would now like to turn to 
the ranking member for 5 minutes. Thank you.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Let me first thank all of the witnesses for your moving, 
touching testimonies. I just went to the floor, as you know, to 
vote, and every member who was participating in the hearing 
were commenting how it has been an incredible experience. It is 
not every day that we have the opportunity to make a positive 
contribution in making sure that we open the door for 
opportunity for everyone in America. Thank you so very much.
    Mr. Anandan, one of the common misconceptions about hiring 
individuals with disabilities is the need for costly 
accommodations in the workplace. Can you elaborate on the 
actions ULTRA took to accommodate its workforce?
    Mr. Anandan. Of course. As a start-up, we don't have the 
ability to do costly anything. We run a lean company and a 
profitable business. A lot of the things we have put in place, 
I would argue, are things that any business should do to be 
more efficient. So we have communication tools we use and 
communication rules we have put in place that take a lot of the 
unwritten rules in a workplace that can be confusing and 
inefficient for anyone and make them explicit. For example, at 
ULTRA, you say don't email the client directly unless it is 
important, and if you do, keep it short. Well, what is 
important, and what is short? Is it really worth anyone's time 
to spend minutes or hours trying to figure out what that is? So 
at ULTRA, an email has to be 700 characters or less, no more 
than three bullet points, and if it takes two iterations to 
resolve it, you should talk live.
    Ms. Velazquez. Thank you. Can you elaborate on how the 
Federal Government can incentivize its larger contractors to 
utilize the diverse workforce and the talents of innovative 
small businesses like yours?
    Mr. Anandan. As you know, Section 503 of the Rehabilitation 
Act includes a goal of seven percent of a contractor's 
workforce being individuals with disabilities. That goal 
doesn't do a lot to support small businesses who are not likely 
to be government contractors. On the other hand, they could 
serve as subcontractors. Yet small businesses are much more 
likely than large companies to be innovative and be proactive 
and employing individuals on the spectrum.
    A change in policy that would allow a subcontractor's 
employees to count towards a large contractor's seven percent 
goal could catalyze an entirely new ecosystem of small 
businesses employing people with disabilities partnering with 
large contractors and ultimately doing better business and 
being better for society.
    Ms. Velazquez. Thank you.
    Ms. Goring, as you mentioned, your organization has hosted 
various programs, including town halls and small business 
accelerators together with--about employing those with ASD. 
What were some of the biggest lessons you learned from these 
programs? Are there any takeaways that would be helpful as the 
committee looks into further nontraditional employes?
    Ms. Goring. We learned a couple of things. First we learned 
that you need to do what is best for the business, that it 
needs to make sense to the business, and you lead with that. 
You lead with the quality of the product or the service that 
you are providing, and then the second piece can be that it 
happens to be a person with autism.
    But first and foremost you lead with that. To that point, 
we found that many of the small businesses and entrepreneurs 
maybe didn't have as much business sense as they needed to. So 
we provided them with information about how they can build 
their business, how to make it a profitable business. Then the 
third piece was to provide very specific training about what 
exactly the job entails, what outcomes you are looking for, and 
to break it down into small steps that are taught and then 
chained together. Those were some of the things that we found 
to be helpful.
    Ms. Velazquez. Thank you.
    Ms. Hogan, in your testimony, you discuss how your company 
partners with local schools. Can you elaborate on how 
partnering with schools benefits both small businesses and 
individuals with disabilities seeking employment?
    Ms. Hogan. Are you asking how--what do we do to partner 
with these schools and how do we make this work?
    One thing that is really important to me is that we bring 
the educators into our company and give them tours so that they 
can see the type of jobs that are out there. Then they need to 
go back to their schools to teach the skills. We have done this 
with several of the schools that are involved with the 
transition schools from ages 18 to 22. You have transition type 
schools available for those who wish to keep their students 
still learning. They go to Project SEARCH or something like 
that. It is important that they come and see what we have so 
that they can go back to these transition schools and teach the 
skills.
    Ms. Velazquez. Thank you. Yes. I yield back.
    Chairman Chabot. The gentlelady's time has expired. Thank 
you. The gentlelady yields back.
    We are going to go into a second round. I know Mr. Smith is 
coming back to ask some questions. As I mentioned before, what 
happens oftentimes, this is our leave-town day. Once votes are 
over they scatter out of this place, all back to their 
districts.
    Mr. Anandan, I will start with you this time. How has 
employing individuals with autism impacted your business bottom 
line? Is there any advice that you might want to give to other 
businesses out there that might consider working with folks 
with autism?
    Mr. Anandan. I would say we consider ourselves one of the 
best software testing companies in the world because of the 
teams we have and the team members we have. We have shown over 
and over again that when we have been benchmarked against other 
competitors, whether they are onshore or offshore, we do 
better. We have tested the Webbys, which are sort of like the 
Oscars of the Web. Within a week we found 20 percent more bugs 
and issues in the system than the partner they were working 
with. We won a project away from IBM and redid their work, and 
found 56 percent more bugs than the IBM team, for a Fortune 100 
financial services company.
    The reason we are able to do that is because three-quarters 
of our company have Asperger's Syndrome or a similar autism 
spectrum profile and have the exact profile we are looking for 
to do software testing. Our staff have the raw talent, but also 
the perseverance, the ability to learn, the ability to work 
with teams. We have managers that work with our teams who are 
veteran technologists who join our company to be part of a 
company that has purpose and a mission. We are able to attract 
fantastic talent into all roles.
    Chairman Chabot. Thank you very much. Ms. Hogan, I will 
turn to you next, if I can. In your testimony you had 
mentioned, what a great employee Mike is and works hard and 
comes on time and everything else. But most interestingly you 
said Mike has had a positive impact on other employees and made 
them better employees. Obviously, a small business owner, you 
know that is important to being successful and keeping 
everybody employed, and hiring more people. How has that been 
the case? Are there any stories or examples where the quality 
of Mike has improved the quality of your other employees?
    Ms. Hogan. I have brought with me some quotes and stories 
that several have written. I read through all of them. They are 
all amazing. This one is very interesting to me because it has 
a perspective of someone who didn't know anything about the 
disability world. He says, ``My journey with Mike Ames began 
three months ago when I started at my new company, Contemporary 
Cabinetry East. I was assigned to edge banner and Mike was my 
co-worker on the machine. Mike is my first extended exposure to 
Down Syndrome. I will be honest. I entered our work 
relationship with a certain amount of trepidation. There were a 
lot of unknowns for me about what I was getting into. But at 
the same time, I was so excited about the opportunity presented 
to me.
    In my limited experiences with Down Syndrome, I have always 
found those individuals to be gentle with incredibly big, 
loving hearts. Mike is no exception. My ignorance is being 
erased and my concerns have dissipated. I have to say that 
being around Mike is one of greatest joys I take from my job. 
His kindness and willingness to help anyone who asks is 
admirable. He has earned my respect and affection. Mike teaches 
me every day how to love more. His outlook reminds me to 
appreciate the things and people in my life. His presence 
somehow frees me so I can be in the me that sometimes I am 
afraid to be. I am a happier person because of my friend 
Mikey.''
    Chairman Chabot. That is excellent. Thank you very much. I 
appreciate it.
    I have got like a minute and 15 seconds left in my time and 
two people I would like to ask questions to. So rather than ask 
you some long question, I would just like to say, I will start 
with you, Ms. Goring, and then Ray, we didn't have time to ask 
a lot of questions. For 30 seconds, what would you like to tell 
us that you already haven't told us that you think we ought to 
know that might be helpful to folks out there that would 
consider hiring folks with Autism or Down Syndrome or any other 
disability?
    Ms. Goring. I think it is important to start early when 
they are still in school to work on some of the skills that are 
needed and to do that out in the workplace as much as possible 
in the real environment.
    Chairman Chabot. Thank you very much.
    Joe and Ray?
    Mr. Ray Steffy. Yes, basically I would say a similar thing 
as far as if they could--a lot of people that have significant 
disabilities, their ability to work either owning--working for 
someone in a job or owning a business, they will surprise you 
what they can do when they realize that it is theirs. That is 
the same with Joe. We had hoped he would come here, where he is 
doing this for us.
    Chairman Chabot. Very good. Thank you very much, my time is 
expired. You stayed right in that time. Excellent. Thank you.
    I would like to turn to the gentleman from New Jersey, Mr. 
Smith, is recognized for 5 minutes.
    Mr. Smith. Mr. Chairman, thank you so very much, Chairman 
Chabot, for convening this extremely important and timely 
hearing, and of course, Nydia Velazquez, thank you. What a team 
of people committed to expanding job opportunities. Nobody 
creates more job opportunities than small business, and it is 
timely for other reasons.
    The Autism Cares Act enacted on August 8 of 2014, as you 
know, the administration has been given marching orders to look 
at every aspect, all the inventories of what we are doing in 
every area, including employment, for persons with disabilities 
who have Autism. As Lisa said earlier, 50,000 every year 
matriculate from minor status to adult. They lose education and 
a whole lot of--you know, the challenges are almost 
overwhelming, and we will get a capacity assessment on or 
before August 8.
    It will probably be late. All administrations are. But it 
will be a further blueprint. You are ahead of the game because 
small business will be playing, I think, the key role in that 
employment piece.
    I also would point out that GAO also has undertaken a 
comprehensive study, assessment, unmet needs. The first 
iteration of that, which will come out probably in two or three 
reports, will be at in July. So again, Mr. Chairman, you are 
ahead of the game. Your witnesses were extraordinary. I can't 
wait to taste the popcorn, I think like everyone here. Thank 
you so very, very much for this.
    Frankly our other committees of Congress should be 
following this lead, Education and Workforce and others in 
terms of how we position now for an employment breakout. There 
needs to be a radical transformation on our outdated, and I 
think very foolish, views as to what people with disabilities, 
including people with Autism, can contribute. The statement 
that was made by Joe Steffy about how his IEP team had so 
utterly failed him with the low expectations game. He said, the 
worst disability, quoting him, is that of low expectations.
    To Dad, thank you for the love you show for your son and 
that support. All of us need support teams. Persons with 
disabilities need those support teams as well. You are the 
quintessential example of a family who just gets behind their 
son lock, stock, and barrel.
    I just have a few very, very couple of questions. I have 
many but I know there is a time limit. I had a hearing which we 
heard from SAP who is in the process of hiring 650 people by 
2020. They already have 100. They made the exact same points 
that were made today, and made so eloquently. Part of their 
testimony was in spite of autism, and because of autism and the 
very special skill set that is brought to the employment table.
    One of the things that was pointed out that I think--and 
perhaps our distinguished witnesses could speak to it, is that 
there needs to be a rethinking of talent acquisition processes 
at businesses, and the interview methods, which very often are 
a barrier that needs to be overcome. I also would ask you, if 
you could, to speak to the accommodations issue. There was a 
very important study. The Jan Workplace Accommodations Study 
updated in 2015 that said that 58 percent of the accommodations 
cost absolutely nothing.
    It is a matter of will, political or employment will on the 
part of HR. Beyond that, it is only about $500. We are not 
talking about any kind of onerous burden financially to an 
employer, and then what they get in return in terms of loyalty, 
focus, the ability to do a job exceedingly well. I would also 
ask you, Lisa, if you could speak to, the Chambers working with 
you and NFIB and some of the other great groups that I know the 
chairman and Nydia Velazquez work with all the time. They have 
a very, important role to play with this as well. Again, the 
low expectations game, I know it is the educational piece, but 
how do we get those who are creating these IEPs to be much more 
knowledgeable about the very young person they are working with 
to say: You can really dream and dream large, and there is a 
whole path for you into the future. Those couple of things.
    Ms. Goring. I think it starts with job sampling, to start 
that early. Small businesses are sometimes great opportunities 
to start some of that job sampling. You would be surprised some 
of the things, the preconceived notions of what you thought 
would be the right job for a person aren't always true, but 
that you can actually learn what they are good at.
    In terms of the interview process, videos have been very, 
very helpful. You don't need to have that oral exchange as much 
when you can show a video of the terrific work that someone can 
do.
    Then in terms of accommodations, I think we have all seen--
some of the accommodations are no more than having a script in 
place for someone so they know exactly what to say when they 
pick up the phone. It could be writing out some of the rules 
that we take as sort of unwritten rules, but they are just laid 
out clearly. As ULTRA Testing did, 700 characters. It couldn't 
get more clear than that. Those are the types of accommodations 
that don't cost anything but have tremendous dividends, not 
just for those with disabilities but really for everybody.
    Mr. Anandan. First of all, I would like to say we don't see 
any of the changes we have made to how a business works as 
accommodations. That is how we collaborate. We are 
collaborating across people who have very different strengths. 
It just makes us better, we deliver better results, it makes us 
more efficient. I think if you take something like recruiting, 
a resume tells you how good someone is at writing a resume. A 
firm handshake and eye contact maybe works for your job, but it 
has nothing to do with software testing. For companies to be 
disciplined and rigorous about what it is that they are 
actually looking for, and collect data to validate that they 
are finding what they are getting, versus letting our natural, 
very natural human biases override our assessment of what 
someone is capable of is absolutely critical, and ultimately it 
will make sure that like we do, have a 95 percent success rate 
of someone coming through recruiting to out perform IBM.
    Chairman Chabot. Thank you very much. The gentleman's time 
has expired. Thank you very much.
    I would like to yield such time as she might consume to the 
Ranking Member.
    Ms. Velazquez. Thank you, Mr. Chairman. Just one more 
question.
    I would like to ask Ray, what advice would you give 
similarly situated individuals and families that are interested 
in starting their own business?
    Mr. Ray Steffy. At different times when we have spoken to 
groups, especially parents that have kids with special needs, 
we kind of put it in this way. You have a choice. You can sit 
on the couch and worry about what is going to happen to your 
child when you are gone, and we all would agree worry takes 
energy. Or, you could take that same amount of energy and put 
it toward an endeavor that can develop to be something that 
could go on far beyond you. Basically that is kind of the 
message we have, and also helping them look for resources to 
bring funds available to start in an endeavor that the child is 
interested in, not the adult parents.
    Ms. Velazquez. So, you see a role for government to play?
    Mr. Ray Steffy. Oh, yes. Yes. I do.
    Ms. Velazquez.
    Thank you. Thank you, Mr. Chairman.
    Chairman Chabot. Thank you very much. The gentlelady yields 
back.
    We want to thank this panel very much for this testimony. 
Sorry that you got interrupted by votes. It is an operational 
hazard around this place, especially on heading-out-of-town 
day.
    It has been a great hearing. I think all the members here 
and the ones who were here obviously before but had to take off 
for their districts, we learned a lot. We will pass this on to 
our colleagues. Thank you for being an inspiration to all of us 
by doing your jobs and doing them well and helping others to do 
their jobs and just have a better life. Thank you so much.
    I ask unanimous consent that members have 5 legislative 
days to submit statements and supporting materials for the 
record.
    One more thing. Popcorn Joe has popcorn out there for 
everybody. Please enjoy that, thank you Joe and Ray for 
providing that for us.
    If there is no further business to come before the 
committee, we are adjourned. Thank you very much.
    [Whereupon, at 12:35 p.m., the committee was adjourned.]
                            
                            
                            A P P E N D I X


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                          Testimony of

 Joe Steffy, Owner of Poppin Joe's<SUP>TM</SUP> Gourmet Kettle 
                              Korn

  Help Wanted: Small Business Providing Opportunities for All

              Before the Small Business Committee

             United States House of Representatives

                          May 19, 2016

    My Name is Joe Steffy, I am 30 years old and I own Poppin 
Joe's Kettle Korn. I was born with Down Syndrome and later 
diagnosed with Autism. When I was in school, my professional 
reports said I had an IQ of 32 with profound intellectual 
disabilities. These reports said that my receptive and 
expressive language was at a 3 year old level, and that I had 
minimal basic academic skills.

    As I grew, my parents saw that I liked to do things 
independently, I loved being active with other people and 
spending time with family and friends. They recognized that I 
had a very good memory for detail, and could follow through 
with activities that are part of a regular routine. I was 
blessed with many community opportunities and became a very 
strong swimmer. This led to being able to work at the community 
pool. I enjoyed riding horseback at a local stable and began to 
volunteer there to work with the horses. Soon I worked in 
exchange for riding.

    In high school, my IEP (Individualized Education Plan) team 
began to plan for my transition into adulthood. The team had 
very low expectations. The worst disability there is that of 
low expectations. They said I would never hold a job, that I 
had no attention span, could not focus, would need to live in a 
group home and go to a sheltered workshop. My parents 
disagreed. They knew I was capable of working and that I 
learned by watching. They also knew I would do exactly what I 
saw done, so teaching me the right way to do things would be 
important. I am happiest when I am busy and my parents knew 
this. I would work, they said.

    While on a trip, my Dad saw a man popping Kettle korn that 
caught his attention. He asked many questions about the process 
of the man, and learned that Kettle Korn is an old German way 
of popping popcorn with sugar. When you add the sugar and 
secret ingredients to the popcorn and vegetable oil in the hot 
kettle, the sugar breaks down into a liquid. As the popcorn 
pops it comes up through the sugar and gives the kernels a 
sugar coating. While popping, the kettle is 500 degrees so it 
is important that it is constantly stirred. As you stir the 
popped kernels, it comingles. Once it is all popped, it is 
dumped out onto the screening table where it cools.

    My Dad came away excited about the possibilities to use 
this to build on my strengths. This was a way for me to prove 
that I could work. We began my work trial in October of 2000. 
The goal was to see if I could work. We popped on weekends at 
local grocery stores and I showed Dad I could stay on task for 
up to 6 hours. In the work trial, Dad saw that I could learn 
the repetition of the production process. I could pop, and I 
could bag, both key parts of popping Kettle Korn.

    My parents decided this looked like very promising work for 
me. They attended a Partners in Policymaking class in Kansas 
that David Hammis presented at. They learned that I and others 
with significant disabilities could OWN their own business. The 
key to making Poppin Joe's Kettle Korn came true was having a 
business plan, doing the work trial to prove I could work. 
First Steps helped Mom set up the business plan, and the Kansas 
Department for Development Disabilities provided me with a new 
business startup grant to purchase new equipment. My start up 
team included Social Security, which offers a program called 
PASS (The plan for achieving self-support) which supported my 
business goals and provided cash set aside for my monthly cash 
flow. My parents also worked with Vocational Rehab to purchase 
a computer and laser printer for my business. They submitted my 
business plan to open Poppin Joes Kettle Korn to each of these 
team members. My Team was then able to provide me the start-up 
supports I needed to become the sole proprietor of Poppin Joe's 
Kettle Korn in April of 2005.

    I offer five products in my business. Cinnamon Kettle Korn, 
Sweet and Cheesy, Old Fashioned Kettle Korn, White Cheddar 
popcorn, and Golden Karmel Korn. I sell 65% at Festivals like 
the County Fair, Car shows, and various festivals around Kansas 
City. 25% of my business is through Retail outlets, where I 
supply weekly to specialty stores, gas stations, medical 
centers, and Farmer's Markets. The final 10% is done for 
special events like weddings, graduations, employee events, and 
internet sales.

    My daily business tasks include deliveries, banking, paying 
my bills, and sending out invoices, as well as popping kettle 
korn to keep up with the demand. My gross sales started out 
$15,000 in 2005. They doubled in 2006 and have now tripled. 
Sales in 2016 were just over $67,000. I have 7 seasonally 
employees. I even pay taxes. I am a success because of teamwork 
and the commitment my parents have made to me.

    Poppin Joe's Kettle Korn began with the Mission of: 1) 
Honoring God in all I do, 2) To be a blessing to other people, 
3) To purpose excellence, 4) To grow profitability. I am a 
member in the community that I work in, which gives me a place 
to belong. I am a contributing citizen and am able to do 
fundraisers for local churches, schools, businesses and 
communities events, as well as for many non-profit 
organizations. I shipped kettle korn to the troops in 
Afghanistan. My community values me.

    In 2008, Poppin Joes helped me move into my own home. I 
love my freedom--it gives me a great life! I go to work during 
the day, and hang out and do fun activities at night, just like 
most business owners. I have many activities I enjoy, like 
shooting hoops, horseback riding, swimming, traveling, skiing, 
going to amusement parks, water surfing, sky diving, lifting 
weights, scuba diving, spending time with my family and 
friends. My business has also enabled me to have many 
adventures, going places and meeting people I would not 
otherwise get to meet. I have been invited to travel and share 
my story with groups across the country. This has brought me 
many new friends, and expanded my business even further.

    My business works for me. It creates new opportunities for 
me to grow as a person, and to be an engaged, valued member of 
my community. With the right support system, being a self-
supporting entrepreneur can be, and is, a reality for me. Thank 
you for inviting me.

    I have been blessed by incredible parents who have 
advocated for me from my birth. They saw my potential, they 
knew that I could succeed. They have helped me make my business 
a reality, and a continued success.

    I love being `Poppin Joe'. It is an honor to be here. Thank 
you.

    *Article is from Joe's Power point presentation he uses 
with his augmentative device to tell his story.

    Joe Steffy is 30 years old and lives in his own apartment 
in Louisburg, Kansas and is the owner of Poppin Joe's Kettle 
Korn. www.poppinjoes.com

[[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
